No. ____________

In The
Supreme Court of The United States
JOVANNA EDGE, ET AL.
PETITIONERS,
v.
CITY OF EVERETT

RESPONDENT.

PROOF OF SERVICE RE:
APPLICATION FOR AN EXTENSION OF TIME TO
FILE A PETITION FOR WRIT OF CERTIORARI
DEREK A. NEWMAN
Counsel of Record
JASON B. SYKES
JESSICA V. NEWMAN
NEWMAN DU WORS LLP
2101 Fourth Avenue,
Suite 1500
Seattle, Washington 98121
(206) 274-2800
dn@newmanlaw.com
Counsel for Petitioners

I, Derek A. Newman, do swear or declare that on this date, November 25, 2019, as
required by Supreme Court Rule 29(5)(b) I caused to be served the enclosed Application
for an Extension of Time to File a Petition for Writ of Certiorari on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follow:
Counsel for Respondent City of Everett
Matthew J. Segal
Sarah Christine Johnson
Jamie Lisagor
Sarah S. Washburn
PACIFICA LAW GROUP
1191 Second Avenue
Suite 2000
Seattle, WA 98101
Telephone: (206) 245-1700

Ramsey Ramerman
CITY OF EVERETT
Wall Street Building, Suite 10-C
2930 Wetmore Avenue
Everett, WA 98201
Telephone: (425) 257-7000

DATED this 25th day of November, 2019.
Respectfully submitted,
By:

/s/ Derek A. Newman
Derek A. Newman
Counsel of Record
Newman Du Wors LLP
2101 Fourth Avenue, 2101 Avenue,
Suite 1500
Seattle, Washington 98121
(206) 274-2800
dn@newmanlaw.com
Counsel for Petitioners

1

